No. 20-1735
IN THE SUPREME COURT OF THE UNITED STATES

ANGEL MANUEL ORTIZ-DIAZ, ET AL., PETITIONERS
v.
UNITED STATES OF AMERICA, ET AL.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
BRIEF FOR THE RESPONDENTS IN OPPOSITION, via email and by first-class mail, postage
prepaid,this 18th day of August 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2,046 words, excluding
the partsof the document that are exempted by Supreme Court Rule 33.1(d). I declare under penalty of
perjury that the foregoing is true and correct. Executed on August 18, 2021.

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2218

August 18, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case Management Specialist, Office
of the Solicitor General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone
number is (202) 514-2218. Thank you for yourconsideration of this request.

20-1735
ORTIZ-DIAZ, ANGEL MANUEL, ET AL.
USA, ET AL.

SARAH GRACE MCCORD
LIBERTY JUSTICE CENTER
208 S.LASALLE ST.
STE. 1690
CHICAGO, IL 60604
SMCCORD@LIBERTYJUSTICECENTER.ORG
JOSÉ A. BAGUÉ-SOTO
DTS LAW LLC
221 PLAZA
SUITE 801
SAN JUAN, PR 00917-1804
787-754-8700
JBAGUE@DTSLAW.COM
FELIX ROMAN CARRASQUILLO
ROMAN & ASSOCIATES
P.O. BOX 9070
SAN JUAN, PR 00908
939-640-9226
MATTHEW J. CLARK
EXECUTIVE DIRECTOR
ALABAMA CENTER LAW AND LIBERTY
2213 MORRIS AVENUE
FIRST FLOOR
BIRMINGHAM, AL 35203
205-870-9900
MATT@ALABAMALAWANDLIBERTY.ORG

J. MICHAEL CONNOLLY
ANTONIN SCALIA LAW SCHOOL
SUPREME COURT CLINIC
CONSOVOY MCCARTHY PLLC
1600 WILSON BLVD., SUITE 700
ARLINGTON, VA 22209
7032439423
MIKE@CONSOVOYMCCARTHY.COM
TYLER R. GREEN
CONSOVOY MCCARTHY PLLC
222 S. MAIN STREET
5TH FLOOR
SALT LAKE CITY, UT 84101
703-243-9423
BRIAN K. KELSEY
LIBERTY JUSTICE CENTER
141 W. JACKSON ST.,
STE. 1605
CHICAGO, IL 60604
312-637-2280
BKELSEY@LIBERTYJUSTICECENTER.ORG
JORGE MARTINEZ LUCIANO
ML & RE LAW FIRM
COBIAN'S PLAZA
1607 PONCE DE LEÓN
SUITE 404
SAN JUAN, PR 00909
787-999-2972
JORGE@MLRELAW.COM
787-751-2221(Fax)
CARLOS LUGO-FIOL
P.O. BOX 260150
SAN JUAN, PR 00926
787-721-2900
CLUGOFIOL@GMAIL.COM

RUBÉN T. NIGAGLIONI
DTS LAW LLC
221 PLAZA STE. 801
SAN JUAN, PR 00917
787-754-8700
RTN@NIGAGLIONILAW.COM
EDWIN PRADO-GALARZA
PRADO, NÚÑEZ & ASOCIADOS
403 DEL PARQUE ST.
SUITE 8
SAN JUAN, PR 00912
787-977-1411
EDWIN QUIÑONES
QUIÑONES, ARBONA & CANDELARIO PSC
PO BOX 10906
SAN JUAN, PR 00922
EQUINONES@QACLAW.COM
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG

